      Department of Homeland Security





                       Capping Report: 

            FY 2012 FEMA Public Assistance and 

        Hazard Mitigation Grant and Subgrant Audits





OIG-13-90                                          May 2013

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



                                 May 21, 2013


MEMORANDUM FOR:               Joseph Nimmich




FROM:




SUBJECT:                      Capping Report: FY 2012 FEMA Public Assistance and
                              Hazard Mitigation Grant and Subgrant Audits

This capping report summarizes the results of Public Assistance (PA) program and
Hazard Mitigation Grant Prog,~m (HMGP) grant and subgrant audits performed during
fiscal year (FY) 2012. We reviewed audit findings and recommendations made to
Federal Emergency Management Agency (FEMA) officials as they related to the PA and
HMGP program funds that FEMA awards to State, local, and tribal go~ernments, and
eligible nonprofit organizations. The objectives of this report were to identify frequently
reported audit find ings and quantify the financial significance of these fi ndings.

We dis.cussed this report with representatives from FEMA's Office ofthe Associate
Administrator, Response and Recovery, and Office of Assistant Administrator, Recovery,
on March 21, 2013. Although our conclusion offers FEMA several suggestions for
improving PA and HMGP program grant administration, this report contains no formal
recommendations. Therefore, we consider this report closed and require no further
actions from FEMA.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions at (202) 254-4100, or your staff may wntact
Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.

Attachment
                                                    


                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

Background

In FY 2012, we issued 59 audit reports on grantees and subgrantees awarded FEMA PA
and HMGP funds between November 2002 and December 2009 as a result of
31 presidentially declared disasters in 16 States and 1 U.S. Territory.1 The objective of
those 59 audits was to determine whether the grantees and subgrantees accounted for
and expended FEMA funds according to Federal regulations and FEMA guidelines. Our
HMGP audit objectives also included determining whether the projects met FEMA
eligibility requirements and project management complied with applicable regulations
and guidelines. Appendix A lists the 59 audit reports and provides a link to our web
page where copies can be obtained.

Our PA and HMGP audits covered subgrantees that had (1) completed all work approved
by FEMA and reported final costs to the grantee, which in turn had requested final
FEMA payment; (2) completed all work and reported final costs to the grantee that had
not yet requested final FEMA payment; (3) completed selected projects but had not
reported final project costs to the grantee; or (4) projects in progress or projects that
had not yet started. The subgrantees we audited received awards totaling $1.52 billion
for debris removal; emergency protective measures; or permanent repair, restoration,
and replacement of damaged facilities. We audited $1.25 billion of the $1.52 billion, or
82 percent of the amounts awarded to the recipients audited.

We conducted this performance audit and the 59 performance audits discussed in this
report under the authority of the InspectorfGeneralfActfoff1978, as amended, and
according to generally accepted government auditing standards. Those standards
require that we plan and perform audits to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained during this audit and during the
59 performance audits provided a reasonable basis for our findings and conclusions
based on our audit objectives. We conducted these audits according to the statutes,
regulations, and FEMA policies and guidelines in effect at the time of the disasters. Our
review included analyses of (1) findings and recommendations in our FY 2012 grant
audit reports and (2) applicable Federal regulations, Office of Management and Budget
(OMB) grant and audit guidance, and FEMA PA and HMGP guidance applicable to the
conditions noted.




1
 Of the 59 audits, 17 were audits of subgrantees that suffered damage from Hurricane Katrina declared in
August 2005.

www.oig.dhs.gov                                    2                                          OIG-13-90
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

Results of Review

Of the 59 audit reports we issued in FY 2012, 54 reports contained 187 recommendations
resulting in potential monetary benefits of $415.6 million.2 This amount included
$267.9 million in questioned costs that we recommended FEMA disallow as ineligible or
unsupported, and $147.7 million in unused funds that we recommended FEMA
deobligate and put to better use. The $415.6 million in potential monetary benefits
represents 33 percent of the $1.25 billion we audited, compared with 28 percent in
FY 2011, 13 percent in FY 2010, and 15 percent in FY 2009.3 The FY 2012 increase in
potential monetary benefits is due in part to increases in funds put to better use
stemming from problems with project cost estimating or funds that other Federal
agencies should have provided.

As stated in our three previous capping reports, we continue to find problems with grant
management and accounting, ineligible and unsupported costs, and noncompliance with
Federal contracting requirements. New significant issues this year include problems
with cost estimating under FEMA’s “50 Percent Rule” and problems with subgrantees
not having legal responsibility over their damaged facilities.

As discussed in this report, ineligible costs occurred for numerous reasons, but
undoubtedly better grant management would improve subgrantees’ compliance with
Federal regulations and FEMA guidelines and decrease ineligible costs. Also, the
amount of unneeded funding would decrease sharply if FEMA and grantees more
closely managed grant funding and deobligated unneeded funds faster. Table 1
categorizes our audit findings and the 187 recommendations into four broad types.




2
 Five FY 2012 audit reports had no findings or reportable conditions.
3
 Our FY 2011 capping report reported $336.9 million in potential monetary benefits out of $1.2 billion in
PA and HMGP funds audited (Report OIG-12-74); our FY 2010 capping report reported $165 million in
potential monetary benefits out of $1.2 billion in PA funds audited (Report DD-11-17); and our FY 2009
capping report reported $138 million in potential monetary benefits out of $933 million in PA funds
audited (Report DS-11-01).

www.oig.dhs.gov                                     3                                           OIG-13-90
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

Table 1. Fiscal Year 2012 Public Assistance and Hazard Mitigation Grant Program
Potential Monetary Benefits by Finding Type
                                           Number of              Amounts
            Types of Findings               Resulting           Questioned in
                                        Recommendations          Our Reports
  A. Ineligible Work or Costs                85                    $246,475,048
  B. Funds Put to Better Use                 25                     147,698,246
  C. Unsupported Costs                       26                      21,418,885
  D. Grant Management and
      Administrative Issues                  51                                 0
               Totals                       187                   $415, 592,179

A. Ineligible Work or Costs

As illustrated in table 2, we questioned $246.5 million in costs as ineligible for FEMA
reimbursement.

Table 2. Fiscal Year 2012 Public Assistance and Hazard Mitigation Grant Program
Ineligible Work or Cost by Type
                                            Number of               Amounts
    Subtypes of Ineligible Work or
                                            Resulting            Questioned in
                 Costs
                                        Recommendations           Our Reports
   1. Legal Responsibility                      3                  $ 98,197,351
   2. Project Cost Estimating                   4                    31,099,228
   3. Contracting Practices                    10                    21,746,755
   4. Other Ineligible Work/Costs              68                    95,431,714
                Totals                         85                  $246,475,048

1.	 Legal Responsibility. We reported three instances where grantees awarded
    subgrantees $98.2 million under projects for which they were not legally responsible.
    Federal regulation 44 CFR 206.223(a)(3) requires the subgrantee to be legally
    responsible for the facility to be eligible for Federal disaster assistance. For example,
    in Audit Report DD-12-12, LegalfResponsibilityfIssuesfRelatedftofFEMAfPublicf
    AssistancefGrantfFundsfAwardedftofthefOrleansfParishfCriminalfSheriff’sfOffice,f
    OrleansfParish,fLouisiana, we questioned $97.9 million obligated for work related to
    properties that the subgrantee did not own and was not legally responsible to
    repair. Also, the PublicfAssistancefGuide (FEMA 322, October 1999, p. 25) states that
    an eligible applicant must be legally responsible for the damaged facility at the time
    of the disaster. If the applicant is the lessee (tenant), facility repairs are not eligible
    unless the lease specifically states that the lessee is responsible for the repairs.



www.oig.dhs.gov                               4	                                     OIG-13-90

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

    In determining property ownership and legal responsibility, FEMA and grantee
    officials should not rely on the word of the subgrantee as they did with the Orleans
    Parish Criminal Sheriff’s Office. Rather, FEMA or the grantee should verify which
    entity has legal responsibility. Relying on the subgrantee’s word, rather than legal
    documentation, to determine ownership provides no assurance that Federal funds
    are going to an eligible entity.

2.	 Project Cost Estimating.4 We reported four instances where FEMA officials
    incorrectly estimated and calculated project costs related to $31.1 million in
    ineligible project costs. Moreover, in three of the four instances, FEMA misapplied
    the “50 Percent Rule” to determine project eligibility and replaced damaged
    facilities. The 50 Percent Rule states that a facility is generally eligible for
    replacement when the estimated repair cost exceeds 50 percent of the estimated
    replacement cost. In two of the instances when FEMA misapplied the 50 Percent
    Rule, FEMA relied on inaccurate documentation that the subgrantee provided. For
    example, in DS-12-03, FEMAfPublicfAssistancefGrantfFundsfAwardedftofPasofRoblesf
    JointfUnifiedfSchoolfDistrict,fCalifornia, we identified $10.2 million as ineligible.
    FEMA officials used incorrect square footage because they used calculations
    provided by the school district that did not account for codes and standards.

    We also reported an instance where FEMA officials approved an ineligible HMGP
    project because neither FEMA nor the grantee reviewed the subgrantee’s
    Benefit/Cost Analysis (BCA).5 FEMA provides mitigation grants under HMGP with
    the stipulation that the project be cost effective. Proving cost effectiveness
    generally requires the benefits of a project to at least equal the costs. In our Audit
    Report DD-12-13, FEMAfHazardfMitigationfGrantfProgramfFundsfAwardedftofComalf
    County,fTexas, we questioned $16.3 million as ineligible because the county used an
    unapproved BCA methodology that did not factor in the net present value of future
    benefits as FEMA requires. Using an approved BCA methodology that calculated the
    net present value of future benefits would have proven that the project was not cost
    effective.

    FEMA needs to ensure that PA and HMGP applicants spend Federal funds only on
    eligible projects. In making project decisions that require careful calculations to
    determine project eligibility, FEMA and grantee officials should verify itemized costs
    and benefits needed to correctly implement FEMA calculation tools, such as the Cost
    Estimating Format and BCA.



4
  We also identified significant problems with project cost estimating under Funds Put to Better Use (table 

4).

5
  FEMA and grantees use the BCA to evaluate the cost effectiveness of HMGP applications. 


www.oig.dhs.gov                                      5	                                          OIG-13-90
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

3.	 Contracting Practices. We reported 10 instances where subgrantees did not comply
    with Federal procurement regulations for contracts totaling $21.7 million.
    Noncompliance with Federal procurement regulations results in high-risk contracts
    that potentially cost taxpayers millions of dollars in excessive costs and often does
    not provide open and free competition to all qualified bidders, including small firms
    and women- and minority-owned businesses. In addition, open and free competition
    helps to discourage and prevent favoritism, collusion, fraud, waste, and abuse.

   We considered the exigencies that often arise early after a disaster occurs and, as a
   general rule, did not question contracting practices or costs associated with those
   exigencies. However, subgrantee noncompliance remains a major concern to us.
   For example, in Audit Report DA-12-18, FEMAfPublicfAssistancefGrantfFundsf
   AwardedftofHendersonfPointfWaterfandfSewerfDistrict,fPassfChristian,fMississippi,
   we identified $4.1 million in contract costs where the district did not provide open
   and free competition or perform a price analysis to establish reasonable prices.
   District officials informed us that they did not openly compete the work because
   they were operating under a state of emergency at the time of the replacement and
   repair work. However, we did not agree and stated in our report that the work
   should have been openly competed because it was for permanent repair work, not
   emergency work.

   Although FEMA has remedies available when a grantee or subgrantee does not
   comply with applicable statutes or regulations, FEMA often does not hold grantees
   and subgrantees adequately accountable for noncompliance with procurement
   regulations. FEMA seldom disallows improper contract costs, citing that it has the
   authority to reimburse subgrantees for the reasonable cost of eligible work.
   Consequently, grantees and subgrantees have little incentive to follow procurement
   regulations. For example, as of November 30, 2012, of the 10 recommendations
   related to noncompliance with procurement regulations—

       •	 FEMA agreed or agreed in part to disallow costs we questioned in only one
          recommendation totaling $119,055, or less than 0.5 percent of the total
          $21,746,755 we questioned;

       •	 FEMA disagreed with our questioned costs in six recommendations totaling
          $14,541,377, or 67 percent of the total; and

       •	 FEMA had not responded to four recommendations totaling $7,086,323, or
          33 percent of the total.

   The FY 2011 Capping Report included recommendations for noncompliance with
   procurement regulations that FEMA had not responded to when we issued the

www.oig.dhs.gov                             6	                                   OIG-13-90

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

       report. Since that time, FEMA has agreed with one recommendation and in part
       with a second recommendation ($67,409 out of $241,083). They also have disagreed
       with another recommendation related to debris removal totaling $40,552,442
       because they believed the cost was reasonable. Thus, as of January 2013, the
       updated status of the 17 recommendations related to noncompliance with
       procurement regulations, as discussed in the FY 2011 Capping Report, are as follows:

           •	 FEMA agreed to disallow $4,956,690 of the total $131,759,350 that we
              questioned, or less than 4 percent (agreed with three recommendations and
              partially agreed with another one);

           •	 FEMA allowed $126,062,660 of the total $131,759,350 that we questioned,
              or more than 95 percent (disagreed with 12 recommendations and partially
              disagreed with another one); and

           •	 FEMA had not responded to one recommendation totaling $740,000, or less
              than 1 percent of the total $131,759,350 that we questioned.

       Under certain conditions, Federal regulations allow agencies to grant exceptions to
       Federal administrative requirements for grants.6 However, the OMB allows these
       exceptions only on a case-by-case basis. FEMA codified OMB’s Uniformf
       AdministrativefRequirementsfforfGrantsfandfCooperativefAgreementsftofStatefandf
       LocalfGovernments at 44 CFR Part 13, which states in part that Federal agencies may
       authorize exceptions to the administrative requirements on a case-by-case basis, but
       that only OMB may authorize exceptions for classes of grants or grantees (44 CFR
       13.6). The UniformfAdministrativefRequirementsfforfGrantsfandfAgreementsfwithf
       InstitutionsfoffHigherfEducation,fHospitals,fandfotherfNon-profitfOrganizations
       (2 CFR Part 215) includes similar provisions, but adds, “exceptions from the 

       requirements of this part shall be permitted only in unusual circumstances 

       [2 CFR 215.4].”


       Clearly, OMB’s intent was not for Federal agencies to make exceptions to the
       procurement standards in the administrative requirements for grants a routine
       practice. Accordingly, we do not believe that it is prudent to waive Federal
       procurement standards unless lives and property are at stake, because the goals of
       proper contracting relate to more than just reasonable costs. Once the roads are
       clear, power is restored, and the danger is over, cities, counties, and other entities
       should follow Federal regulations or risk losing Federal funding.




6
    See 44 CFR Part 13, sections 13.6(b) and (c), and 13.43(a).

www.oig.dhs.gov                                         7	                            OIG-13-90
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

 4.	 Other Ineligible Work or Costs. Table 3 lists other ineligible work or costs we
     questioned in FY 2012. Administrative allowance and insurance proceeds
     dominated the ineligible work or costs we questioned.

  Table 3. Fiscal Year 2012 Public Assistance and Hazard Mitigation Grant Program
  Other Ineligible Work or Costs by Type
                                                       Number of            Amounts
                 Other Ineligible
                                                        resulting         questioned in
                  Work or Costs
                                                   recommendations         our reports
Administrative allowance/overhead                         2               $45,590,364
Insurance proceeds misapplied/misallocated                9                37,026,250
Excessive or unreasonable costs                          10                 4,504,274
Duplicate costs                                           8                 3,774,597
Outside FEMA-approved scope                               8                 1,052,809
Miscellaneous ineligible costs                           31                 3,483,420
                    Totals                               68               $95,431,714

 The combined administrative allowance and insurance proceeds totaled more than half
 the total of this subtype of “other ineligible work or costs.”

 For example, in Audit Report DD-12-19, DirectfAdministrativefCostsfPaidfforfFEMAfPublicf
 AssistancefGrantfFunds, we identified $45.5 million in questioned costs where FEMA
 inappropriately authorized the retroactive application of laws, regulations, and policies
 for two Louisiana disasters. We questioned these costs because any administrative
 costs claimed beyond the sliding-scale administrative allowance are duplicate costs.

 Another substantial amount of questioned costs resulted from costs covered by
 insurance. We reported nine instances totaling $37.0 million where subgrantees and
 FEMA did not correctly apply or allocate insurance proceeds. For example, in Audit
 Report DD-12-10, InsurancefAllocationsftofFEMAfPublicfAssistancefGrantfFundsfAwardedf
 tofthefAdministratorsfoffthefTulanefEducationalfFund,fNewfOrleans,fLouisiana, we
 questioned $24.5 million as ineligible because subgrantee officials overstated FEMA’s
 portion of losses because they did not properly allocate insurance proceeds to their
 damaged facilities. Additionally, in Audit Report DD-12-04, FEMAfPublicfAssistancef
 GrantfFundsfAwardedftofCameronfParishfSchoolfBoard,fCameron,fLouisiana, Cameron
 Parish received $10.3 million in insurance proceeds. However, FEMA had not allocated
 $1 million that the parish received in flood insurance proceeds. FEMA should have
 completed its insurance review and allocated $1 million in applicable insurance proceeds.
 Federal regulations at 44 CFR 206.250(c) require FEMA to deduct actual or anticipated
 insurance recoveries that apply to eligible costs from project awards. This action prevents
 subgrantees from receiving duplicate benefits for losses, which is prohibited under
 section 312 of the Stafford Act. Although the subgrantee is responsible for reporting

 www.oig.dhs.gov                              8	                                   OIG-13-90

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

insurance proceeds, FEMA is responsible for completing an insurance review to
determine insured losses. Completing this review prevents FEMA from overobligating
Federal funds that otherwise could be put to better use.

B. 	Funds Put to Better Use

As illustrated in table 4, we reported 25 instances where subgrantees no longer needed
project funding, or where FEMA funded ineligible activities, and recommended that
FEMA deobligate $147.7 million.

Table 4. Fiscal Year 2012 Public Assistance and Hazard Mitigation Grant Program
Funds Put to Better Use by Type
                                            Number of               Amounts
          Subtypes of Funds
                                             Resulting            Questioned in
          Put to Better Use
                                        Recommendations            Our Reports
                              7
  1.	 Project Cost Estimating                   4                $ 84,419,152
  2.	 Unused Obligated Funds                   15                  46,064,102
  3.	 Funding from Other Agency                 4                  15,019,249
  4.	 Miscellaneous Causes                      2                   2,195,743

      Totals                                   25                $147,698,246


1.	 Project Cost Estimating. The majority of the obligated funds we recommended
    putting to better use resulted from ineligible projects or costs that were ineligible
    because of problems with cost estimating. For example, in DD-12-17, FEMA’sf
    DecisionsftofReplacefRatherfthanfRepairfBuildingsfatfthefUniversityfoffIowa, we
    recommended that FEMA deobligate and put to better use $83.7 million in building
    replacement costs, in part because the buildings did not meet “50 Percent Rule”
    criteria for replacement.8 In this audit, we identified significant errors in FEMA’s
    Cost Estimating Format calculations.9 Instead of developing a detailed scope of work

7
  FEMA disagreed with our recommendations to deobligate the $83.7 million we questioned in our
University of Iowa (DD-12-17) report stating that FEMA’s existing policy was ambiguous and that
regardless, its own policies do not have the effect of law and cannot bind FEMA. On October 24, 2012,
the Department of Homeland Security’s Under Secretary for Management upheld FEMA’s decisions saying
that, based on the information provided, he could not determine whether FEMA’s decisions were
aberrations or poorly documented exercises of FEMA’s latitude in making these types of decisions.
Therefore, these questioned costs have been ruled eligible.
8
  According to Federal regulation 44 CFR 206.226(f)(1), “A facility is considered repairable when disaster
damages do not exceed 50 percent of the cost of replacing a facility . . . .” FEMA refers to this regulation
as the “50 Percent Rule” and implements it according to its Disaster Assistance Policy 9524.4. This policy
provides the decision-making tool to determine whether FEMA should fund the repair or replacement of a
disaster-damaged facility.
9
  We identified problems with project cost estimating under both Ineligible Work or Costs ($31,099,228)
and Funds Put to Better Use ($84,419,152) totaling $115,518,380.

www.oig.dhs.gov                                      9	                                          OIG-13-90
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

     and itemized costs as FEMA’s Cost Estimating Format required, FEMA Region VII
     officials inappropriately estimated replacement costs using gross square footage
     data rather than using detailed line-item costs based on construction drawings or
     other detailed descriptions.

2.	 Unused Obligated Funds. Another area where we identified funds put to better use
    related to funds not needed or work not started. For example, in Audit Report DS-
    12-06, InterimfReportfonfFEMAfPublicfAssistancefGrantfFundsfAwardedftofLosf
    AngelesfCounty,fCalifornia, we identified $16.1 million in funds that FEMA should
    put to better use. After the county completed and accounted for all large projects
    as of May 2011, $16.1 million in unneeded funds remained obligated. Additionally,
    in Audit Report DD-12-05, FEMAfPublicfAssistancefGrantfFundsfAwardedftofMiddlef
    SchoolfAdvocates,fInc.,fNewfOrleans,fLouisiana, we concluded that Middle School
    Advocates had not completed any authorized work or claimed any costs under its
    award. Our audit determined that Middle School Advocates did not plan to start any
    work to replace the damaged school as FEMA approved, but was pursuing an
    alternate project without FEMA’s approval. We recommended that FEMA
    deobligate the entire award of $13.0 million and put those funds to better use.

     Deobligating unneeded funds sooner would (1) release funding to cover cost
     overruns on other projects associated with the disaster, (2) aid in closing out the
     subgrantee's PA application because projects would be settled throughout the life of
     the application, rather than after all work was completed, (3) provide a more
     accurate status of program costs for a disaster, and (4) be consistent with
     appropriation law that requires obligations in FEMA’s accounting system be
     supported by bona fide needs. Grantees can improve their monitoring efforts by
     ensuring that unneeded funds are identified and returned to FEMA as soon as
     practicable after projects are completed.10

3.	 Funding from Other Agency. This year, we identified obligated funds that another
    Federal agency should have provided. FEMA obligated virtually all of these funds for
    repairs that were the responsibility of the U.S. Army Corps of Engineers. For example,
    in Audit Report DA-12-26, FEMAfPublicfAssistancefGrantfFundsfAwardedftofSouthf
    FloridafWaterfManagementfDistrictfUnderfHurricanefFrances, we questioned
    $10 million for repairs to flood control facilities that were not eligible because the
    repairs were covered under the U.S. Army Corps of Engineers’ Rehabilitation
    Inspection Program.

10
  OIG Management Report OIG 10-49, OpportunitiesftofImprovefFEMA'sfDisasterfCloseoutfProcess,
discusses several reasons for delays in the disaster closeout process. Grantee delays were attributed to
staff shortages, inexperienced staff, conflicting priorities, and a need for closure incentives, which among
other things, results in not performing final inspections and reconciliations of individual subgrantee
projects when they are completed.

www.oig.dhs.gov                                      10 	                                         OIG-13-90
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


4.	 Miscellaneous Causes. The remaining $2.2 million in miscellaneous causes related to
    overstated funding and included unallowable sales tax when obligating a project.

C. 	Unsupported Costs

Our FY 2012 audits reported 26 instances in which we questioned $21.4 million where
subgrantees did not adequately support costs claimed or to be claimed. For example in
Audit Report DS-12-07, FEMAfPublicfAssistancefGrantfFundsfAwardedftofCityfoff
Atascadero,fCalifornia, we reported that the city did not support $3 million in
architecture and engineering costs. Additionally, in Audit Report DD-12-15, FEMAfPublicf
AssistancefGrantfFundsfAwardedftofOchsnerfClinicfFoundation,fNewfOrleans,fLouisiana,
we reported that Ochsner did not support $2.4 million in contract costs.

Unsupported costs resulted because subgrantees (1) had not established fiscal and
accounting procedures that would allow us to trace expenditures to confirm that
subgrantees used Federal funds according to applicable laws, regulations, and FEMA
policy or (2) did not maintain accounting records supported by source documents such
as canceled checks, paid bills, and contracts. Further, the grantee did not always verify
that costs claimed by its subgrantees met the standards for financial management or
ensure that its subgrantees were aware of and followed record retention and access
requirements.

D. 	Grant Management and Administrative Issues

Federal regulations require States, as grantees, (1) to ensure that subgrantees (such as
cities and school districts) are aware of requirements that Federal regulations impose on
them and (2) to manage the day-to-day operations of subgrant activity and monitor
subgrant activity to ensure compliance with applicable Federal requirements.11 Our
reports included 51 grant management and administrative recommendations covering
project accounting, general grant management, contracting practices, contract billings,
and project costs.

We reported instances in which grantees could improve grant management. In some
instances, grantees needed to (1) establish policies for recognizing direct administrative
costs that are unreasonable or unnecessary, (2) submit FEMA quarterly reports with
financial information in accordance with FEMA’s PublicfAssistancefGuide (FEMA 322),
(3) submit closeout documentation for projects as soon as practicable, and (4) develop
and implement oversight procedures to improve its monitoring of subgrantees. We also
reported instances of improper project accounting where subgrantees did not account

11
     44 CFR 13.37(a)(2) and 44 CFR 13.40(a).

www.oig.dhs.gov                                  11 	                             OIG-13-90
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

for disaster expenditures on a project-by-project basis. Failure to perform project-by-
project accounting increased the risk of duplicating disaster expenditures among
projects.

Federal regulations establish uniform administrative rules for grants and procedures for
PA and HMGP project administration. These rules and procedures require that grantees
and subgrantees have fiscal controls, accounting procedures, and project administration
procedures that provide FEMA assurance that (1) grant and subgrant financial and
project status reports are accurately reported, (2) expenditures can be traced to a level
that ensures that funds have not been used in violation of applicable statutes, and
(3) grantee and subgrantees adhere to StaffordfAct requirements and the specific
provisions of applicable Federal regulations when administering PA grants.


Conclusion

This report marks the fourth consecutive year that we summarized the results of our PA
and HMGP grant audits in hopes of identifying systemic problems. Our reports examined
activities spanning many years and many declared disasters. Although our reports focus
on problems we identify, it is important to recognize the exceptional work that FEMA
and State and local emergency management officials perform in getting recovery money
to those who need it. However, grantees and subgrantees did not always properly
account for and expend FEMA PA and HMGP program funds. Federal regulations
regarding grant administration require States, as grantees, to oversee subgrant activities
and ensure that subgrantees are aware of and follow Federal regulations designed to
ensure that financially assisted activities comply with applicable laws and regulations.
Many of our findings and reportable conditions indicate that States should do a better
job of educating subgrantees and enforcing Federal regulations.

It is FEMA’s responsibility to hold States accountable for proper grant administration,
especially with regard to contracting practices. Although, we questioned $110 million
less in contract costs in FY 2012 than in FY 2011, subgrantees are still not fully complying
with Federal procurement regulations.

Although FEMA has the authority to waive certain administrative requirements, it
should not be standard practice to allow noncompetitive and cost-plus-a-percentage-of-
cost contracts even when the costs are reasonable and for eligible work. Given the
Federal Government’s trillion-dollar annual budget deficit, all Federal agencies need to
minimize Federal outlays whenever possible. As we stated in our FY 2011 Capping
Report, FEMA should continue to use the remedies specified in Federal regulations
(1) to hold grantees and subgrantees accountable for material noncompliance with


www.oig.dhs.gov                             12                                     OIG-13-90

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

Federal statutes and regulations and (2) demand grantees and subgrantees properly
account for and expend FEMA funds.

Additionally, FEMA should consider requesting that States (1) evaluate their capabilities
to administer FEMA PA and HMGP grants, (2) identify gaps inhibiting effective grant and
subgrant management and program and project execution, and (3) identify
opportunities for FEMA technical assistance such as training and project monitoring.
Finally, because PA and HMGP projects often take years to complete; constant grantee
monitoring is critical to ensure that subgrantees follow applicable laws, regulations, and
policies throughout the life of the projects.

This report provides a means for FEMA to (1) examine its regulations, policies, and
procedures and assess the need for changes based on the recurring nature of our
findings and (2) inform State emergency management officials (i.e., program grantees)
of grant and subgrant activities that should be avoided or implemented. Providing this
report to PA and HMGP program grantees will enable them to better ensure that
subgrantees follow all laws, regulations, policies, and procedures and properly account
for and expend FEMA funds.




www.oig.dhs.gov                             13                                   OIG-13-90

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

      Appendix A
      FEMA Public Assistance and Hazard Mitigation Grant and Subgrant
      Audit Reports Issued in FY2012

      Report       Disaster
                                Date Issued                                Auditee
     Number       Number(s)
     DA-12-01     1539, 1545,    11/8/2011    Northwest Florida, Pensacola, Florida
1                 1551, 1561,
                  1595, 1602
2    DA-12-02        1604        12/1/2011    Long Beach School District, Long Beach, Mississippi
3    DA-12-03        1604       12/22/2011    FEMA's Implementation of the Mississippi Secondary
                                              Programmatic Agreement under Hurricane Katrina
4    DA-12-04           1609      1/3/2012    City of Miami Beach, Florida – Hurricane Wilma
5    DA-12-05           1602      1/6/2012    City of Miami Beach, Florida – Hurricane Katrina
6    DA-12-06           1552      2/3/2012    Puerto Rico Highway and Transportation Authority – Tropical
                                              Storm Jeanne
7    DA-12-07           1613     2/16/2012    Puerto Rico Highway and Transportation Authority – Flood Events
                                              of October 2005
 8   DA-12-08           1818     2/17/2012    Kentucky National Guard
 9   DA-12-09           1545     2/22/2012    City of Orlando, Florida – Hurricane Frances
10   DA-12-10           1539     3/22/2012    City of Orlando, Florida – Hurricane Charley
11   DA-12-11           1561     2/22/2012    City of Orlando, Florida – Hurricane Jeanne
12   DA-12-12           1813     3/14/2012    Massachusetts Department of Conservation and Recreation
13   DA-12-13           1604     3/20/2012    Harrison County Library System, Gulfport, Mississippi
14   DA-12-14           1862     3/27/2012    City of Virginia Beach, Virginia
15   DA-12-15           1609      4/2/2012    City of Coral Springs, Florida – Hurricane Wilma
16   DA-12-16           1609      5/1/2012    City of Pompano Beach, Florida – Hurricane Wilma
17   DA-12-17           1602      5/3/2012    City of Pompano Beach, Florida – Hurricane Katrina
     DA-12-18           1604     5/11/2012    Henderson Point Water and Sewer District, Pass Christian,
18
                                              Mississippi
19   DA-12-19           1604     5/30/2012    Catholic Charities Housing Association of Biloxi, Inc., Biloxi,
                                              Mississippi
20   DA-12-20           1609     6/15/2012    City of Miramar, Florida – Hurricane Wilma
21   DA-12-21           1604     6/22/2012    City of Hattiesburg, Mississippi
22   DA-12-22           1604     7/18/2012    Long Beach Port Commission, Long Beach, Mississippi
23   DA-12-23           1539     8/27/2012    South Florida Water Management District Under Hurricane
                                              Charley
24   DA-12-24           1561     8/27/2012    South Florida Water Management District Under Hurricane Jeanne
25   DA-12-25           1595     8/27/2012    City of Pensacola, Florida – Hurricane Dennis
26   DA-12-26           1545     8/27/2012    South Florida Water Management District Under Hurricane
                                              Frances
27   DD-12-01           1678     11/1/2011    Grand River Dam Authority, Vinita, Oklahoma
28   DD-12-02           1626     11/1/2011    Prairie Land Electric Cooperative, Inc., Norton, Kansas
29   DD-12-03           1606    11/17/2011    Panhandle Regional Planning Commission, Amarillo, Texas
30   DD-12-04           1607    11/29/2011    Cameron Parish School Board, Cameron, Louisiana
31   DD-12-05           1603     2/22/2012    Middle School Advocates, Inc., New Orleans, Louisiana




      www.oig.dhs.gov                             14                                        OIG-13-90

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security

      Appendix A (continued)
      FEMA Public Assistance and Hazard Mitigation Grant and Subgrant
      Audit Reports Issued in FY 2012

      Report      Disaster          Date
                                                                                Auditee
      Number     Number(s)         Issued
32   DD-12-06       1603          2/22/2012     St. Charles Parish, Louisiana
33   DD-12-07       1699           4/4/2012     Wichita Public School District #259, Wichita, Kansas
34   DD-12-08       1674          4/11/2012     Dawson Public Power District, Lexington, Nebraska
35   DD-12-09       1708          4/11/2012     Harrison County, Missouri
36   DD-12-10       1603          4/19/2012     Administrators of the Tulane Educational Fund, New Orleans, Louisiana
37   DD-12-11    1603, 1786       5/11/2012     City of Bogalusa, Louisiana
38   DD-12-12       1603          5/30/2012     Orleans Parish Criminal Sheriff's Office, Orleans Parish, Louisiana
39   DD-12-13       1606          6/21/2012     Comal County, Texas
40   DD-12-14       1768          6/20/2012     City of Milwaukee, Wisconsin
41   DD-12-15       1603          6/20/2012     Ochsner Clinic Foundation, New Orleans, Louisiana
42   DD-12-16       1699          6/19/2012     City of Greensburg, Kansas
43   DD-12-17       1763          6/19/2012     University of Iowa
44   DD-12-18    1603, 1607,      8/27/2012     St. Tammany Parish Sheriff's Office, Slidell, Louisiana
                    1786
45   DD-12-19    1603, 1607       8/27/2012     Direct Administrative Costs for FEMA Public Assistance Grant Funds
46   DD-12-20    1786, 1792       9/12/2012     St. Charles Parish, Louisiana
47   DS-12-01       1628         12/16/2011     Town of Fairfax, California
48   DS-12-02       1628         12/16/2011     Marin Municipal Water District, California
49   DS-12-03       1505           2/9/2012     Paso Robles Joint Unified School District, California
50   DS-12-04       1628           3/8/2012     Napa County, California
51   DS-12-05       1628           3/8/2012     California Department of Parks and Recreation, Sacramento, California
52   DS-12-06       1577          3/14/2012     Los Angeles County, California
53   DS-12-07       1505          3/20/2012     City of Atascadero, California
54   DS-12-08       1628          3/20/2012     Amador County, California
55   DS-12-09       1669          4/12/2012     Alaska Department of Transportation & Public Facilities, Northern
                                                Region, Fairbanks, Alaska
56   DS-12-10        1440         5/22/2012     Alaska Department of Transportation & Public Facilities, Northern
                                                Region, Fairbanks, Alaska
57   DS-12-11        1628          7/3/2012     County of El Dorado, California
58   DS-12-12        1865         7/18/2012     Alaska Department of Transportation & Public Facilities, Central Region,
                                                Anchorage, Alaska
59   DS-12-13        1628         8/27/2012     City of Vacaville, California

      Copies of the audit reports we issued in FY 2012 are available at the following web address: 

      http://www.oig.dhs.gov/index.php?option=com_content&view=article&id=63&Itemid=33.





      www.oig.dhs.gov                                    15                                            OIG-13-90

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

Appendix B
Major Contributors to this Report

Tonda Hadley, Director
Christopher Dodd, Supervisory Auditor
Jacob Farias, Auditor
William Lough, Senior Auditor




www.oig.dhs.gov                         16                    OIG-13-90

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

Appendix C
Report Distribution

Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Director of Local Affairs, Office of Intergovernmental Affairs
Acting Chief Privacy Officer
Under Secretary for Management

Federal Emergency Management Agency

Administrator
Associate Administrator, Response and Recovery
Chief of Staff
Chief Financial Officer
Chief Counsel
Audit Liaison
Director, Risk Management and Compliance, FEMA Office of Chief Financial Officer
Director, Program Analysis and Evaluation Division

Office of Management and Budget

Chief, Homeland Security Branch / DHS OIG Budget Examiner

Congress

Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure

www.oig.dhs.gov                             17                               OIG-13-90

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
